<html>
<title> - ELECTROMAGNETIC PULSE (EMP): SHOULD THIS BE A PROBLEM OF NATIONAL CONCERN TO PRIVATE ENTERPRISE, BUSINESSES SMALL AND LARGE, AS WELL AS GOVERNMENT?</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
   ELECTROMAGNETIC PULSE (EMP): SHOULD THIS BE A PROBLEM OF NATIONAL 
 CONCERN TO PRIVATE ENTERPRISE, BUSINESSES SMALL AND LARGE, AS WELL AS 
                              GOVERNMENT?

=======================================================================

                             FIELD HEARING

                               before the

                            SUBCOMMITTEE ON
                   GOVERNMENT PROGRAMS AND OVERSIGHT

                                 of the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                        LAUREL, MD, JUNE 1, 1999

                               __________

                           Serial No. 106-17

                               __________

         Printed for the use of the Committee on Small Business



                    U.S. GOVERNMENT PRINTING OFFICE
59-747                      WASHINGTON : 1999



                      COMMITTEE ON SMALL BUSINESS

                  JAMES M. TALENT, Missouri, Chairman
LARRY COMBEST, Texas                 NYDIA M. VELAZQUEZ, New York
JOEL HEFLEY, Colorado                JUANITA MILLENDER-McDONALD, 
DONALD A. MANZULLO, Illinois             California
ROSCOE G. BARTLETT, Maryland         DANNY K. DAVIS, Illinois
FRANK A. LoBIONDO, New Jersey        CAROLYN McCARTHY, New York
SUE W. KELLY, New York               BILL PASCRELL, New Jersey
STEVEN J. CHABOT, Ohio               RUBEN HINOJOSA, Texas
PHIL ENGLISH, Pennsylvania           DONNA M. CHRISTIAN-CHRISTENSEN, 
DAVID M. McINTOSH, Indiana               Virgin Islands
RICK HILL, Montana                   ROBERT A. BRADY, Pennsylvania
JOSEPH R. PITTS, Pennsylvania        TOM UDALL, New Mexico
MICHAEL P. FORBES, New York          DENNIS MOORE, Kansas
JOHN E. SWEENEY, New York            STEPHANIE TUBBS JONES, Ohio
PATRICK J. TOOMEY, Pennsylvania      CHARLES A. GONZALEZ, Texas
JIM DeMINT, South Carolina           DAVID D. PHELPS, Illinois
EDWARD PEASE, Indiana                GRACE F. NAPOLITANO, California
JOHN THUNE, South Dakota             BRIAN BAIRD, Washington
MARY BONO, California                MARK UDALL, Colorado
                                     SHELLEY BERKLEY, Nevada
                     Harry Katrichis, Chief Counsel
                  Michael Day, Minority Staff Director
                                 ------                                

           Subcommittee on Government Programs and Oversight

                 ROSCOE G. BARTLETT, Maryland, Chairman
MARY BONO, California                DANNY K. DAVIS, Illinois
MICHAEL P. FORBES, New York          RUBEN HINOJOSA, Texas
PATRICK J. TOOMEY, Pennsylvania      CHARLES A. GONZALEZ, Texas
RICK HILL, Montana
                        Nelson Crowther, Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 1, 1999.....................................     1

                               Witnesses

Wiltsie, Ronald J., Program Manager, Strategic Systems, the Johns 
  Hopkins University Applied Physics Laboratory..................     3
Soper, Dr. Gordon K., Group Vice President, Defense Group, Inc...     4
Wood, Dr. Lowell, visiting fellow, Hoover Institution on War, 
  Revolution and Peace, Stanford University......................     6
Skinner, Col. Richard W., Principal Director, Command, Control, 
  Communications, Intelligence, Surveillance, Reconnaissance and 
  Space, Office of the Assistant Secretary of Defense (C\3\I)....     9

                                Appendix

Opening statements: Bartlett, Hon. Roscoe........................    35
Prepared statements:
    Wiltsie, Ronald J............................................    37
    Soper, Dr. Gordon K..........................................    59
    Wood, Dr. Lowell.............................................    70
    Walpole, Robert D............................................    84
    Skinner, Col. Richard W......................................    92
Additional material: ``The Commercial and Military Satellite 
    Survivability Crisis'', by R.C. Webb, Les Palkuti, Lew Cohn, 
    Lt. Col. Glenn Kweder and Al Costantine, Defense Electronics, 
    August 1995..................................................   112


   ELECTROMAGNETIC PULSE (EMP): SHOULD THIS BE A PROBLEM OF NATIONAL 
 CONCERN TO PRIVATE ENTERPRISE, BUSINESSES SMALL AND LARGE, AS WELL AS 
                              GOVERNMENT?

                              ----------                              


                         TUESDAY, JUNE 1, 1999

              House of Representatives,    
                 Subcommittee on Government
                            Programs and Oversight,
                               Committee on Small Business,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 12:05 p.m., in 
the Parsons Auditorium, Applied Physics Laboratory, The Johns 
Hopkins University, 11100 Johns Hopkins Road, Laurel, Maryland, 
Hon. Roscoe Bartlett, (chairman of the subcommittee) presiding.
    Chairman Bartlett. Let me call our Subcommittee to order.
    Good morning. It is a pleasure to welcome you to this 
hearing of the Subcommittee on Government Programs and 
Oversight of the House Small Business Committee. I would 
especially like to thank those of you who have traveled some 
distance to participate in this hearing.
    This hearing is being held because the damage to our 
economy, businesses large and small--not to mention national 
security--from electromagnetic pulse (EMP) could dwarf anything 
associated with the well-known Y2K problem. Yet the EMP threat 
is virtually ignored by our government and is practically 
unknown to the general public.
    Concerns about the proliferation of nuclear weapons and the 
possession of such weapons by rogue nations makes a discussion 
of problems associated with EMP and the magnitude of those 
problems a most timely topic. However, few congressional 
hearings have been devoted to this topic, and there is little, 
if any, public awareness of EMP.
    As a matter of fact, I think that, previously, in 1997, we 
had the first ever full hearing on EMP effects in the R&D 
Subcommittee of our then National Security Committee. So this 
will be the second full hearing devoted to the problem of EMP 
effects.
    When I was recently in Vienna, Austria, a member of the 
Russian Duma, Vladimir Lukin, who was the ambassador to the 
United States at the end of the Bush administration and the 
beginning of the Clinton administration--he is now chairman of 
their Foreign Affairs Committee in the Duma--he was one of 
three members of the Russian Duma that met with 11 members of 
the U.S. Congress in Vienna about five weeks ago, now, to 
discuss a framework agreement for ending the conflict in 
Kosovo. He made two comments during those discussions which, I 
felt, were significant.
    One was he said that ``You are bombing Yugoslavia and your 
president says that it is not war. Could we drop an atomic bomb 
on you and say that it was not war?''
    And then, of particular relevance to our hearing today, he 
said in the hearing, ``If we really wanted to hurt you''--and 
Congressman Curt Weldon, who was leading our delegation, is 
somewhat fluent in Russian, at least he can understand it, and 
he knew what Vladimir Lukin was saying before the translation, 
and he pointed to him and said, ``Do you hear what he's 
saying?''
    What Lukin said was, ``If we really wanted to hurt you, we 
would launch an ICBM from the sea with little chance of 
retaliation''--because, if it comes from the sea, how do you 
know who did it in today's world?--``and we would detonate the 
weapon at high altitude, creating an EMP effect which would 
shut down your country for a month or two,'' he said.
    I am not sure if he appreciates how vulnerable we may be to 
that type of an EMP lay-down.
    Well, I felt that that comment was a significant one, 
coming from a person of that stature, in particular relevance 
to our hearing today.
    This statement did not surprise me, but, unfortunately, it 
would come as a surprise to most Americans. I believe it is 
imperative that our government take steps to defend against 
EMP. As with Y2K, the public and businesses need to be informed 
about what steps they could take to prevent or minimize damage 
from EMP.
    It would appear that the number of contracts awarded to 
small businesses by the federal government for EMP research has 
diminished significantly in the last five years. Is the federal 
government placing the correct priority on the problems 
associated with EMP and with the possibility or probability 
that they may occur? Is the public being correctly informed by 
the federal government as to what EMP is, the magnitude of the 
threat and the problems associated with it?
    It is hoped that the testimony today will answer some, if 
not all, of these questions. Also, it is hoped that the hearing 
and the permanent record available to the public after the 
hearing, both in hard copy and in abridged form on the 
Internet, will provide heightened awareness of what EMP is and 
the problems it could create.
    Again, thank you all for participating in this hearing. And 
thank you, in the audience, for attending this hearing.
    [Mr. Bartlett's statement may be found in the appendix.]
    Chairman Bartlett. Let me welcome our witnesses.
    Mr. Ron Wiltsie, Program Manager, Strategic Systems, 
Applied Physics Laboratory, Johns Hopkins University, thank 
you, sir.
    Dr. Gordon Soper, Group Vice President, Defense Group, 
Incorporated.
    And Dr. Lowell Wood, senior staff member, Lawrence 
Livermore National Laboratory.
    I have the testimony of you three and I have read it, and 
thank you very much.
    And Col. Richard Skinner, Principal Director, C3ISR and 
Space Systems, Department of Defense.
    Thank you all very much for being with us. Let me stipulate 
that, without objection, your full testimony will be made a 
part of the public record. If there is additional information 
you would like to add, we will hold the record open for several 
days so that you will have an opportunity to do that.
    We would encourage you to, perhaps, summarize your written 
testimony. There will be ample opportunity during the question 
and answer period which follows to amplify on your testimony.
    We will begin with Ron Wiltsie.

  STATEMENT OF RONALD J. WILTSIE, PROGRAM MANAGER, STRATEGIC 
 SYSTEMS, APPLIED PHYSICS LABORATORY, JOHNS HOPKINS UNIVERSITY

    Mr. Wiltsie. Good afternoon, Congressman. Thank you for the 
opportunity to testify before the Small Business Subcommittee 
on Government Programs and Oversight.
    In this statement, I will consider the phenomenology of 
electromagnetic pulse, or EMP as it is called, and identify 
specific EMP-related vulnerabilities of ground system 
components of the civilian infrastructure.
    My full testimony discusses protection against EMP, as well 
as nuclear threats to space-based elements of the 
infrastructure. It specifically reviews threat environments and 
the effects of prompt and delayed radiation exposure on 
satellite systems. Due to the limitations of time this 
afternoon, I will not address those aspects in these remarks.
    This view graph shows the basic phenomenology of an EMP 
event. The detonation of a nuclear weapon produces high-energy 
gamma radiation that travels radially away from the burst 
center.
    When the detonation occurs at high altitudes, greater than 
40 kilometers, the gamma rays directed toward the earth 
encounter the atmosphere, where they interact with air 
molecules to produce positive ions and recoil electrons, called 
Compton electrons after the man who discovered the effect.
    The gamma radiation interacting with the air molecules 
produces charge separation as the Compton recoil electrons are 
ejected and leave behind the more positive ions.
    The earth's magnetic field interaction with the Compton 
recoil electrons causes charge acceleration, which further 
radiates an electromagnetic field.
    EMP is produced by these charge separation and charge 
acceleration phenomena, which occur in the atmosphere in a 
layer about 20 kilometers thick and about 30 kilometers above 
the earth's surface.
    The area of the earth's surface directly illuminated by EMP 
is determined entirely by the height of the burst. All points 
on the earth's surface within the horizon, as seen from the 
burst point, will experience EMP effects, as depicted in this 
view graph.
    Note that a burst on the order of 500 kilometers can cover 
the entire continental United States. The amplitude, duration, 
and polarization of the wave depend on the location of the 
burst, the type of weapon, the yield, and the relative position 
of the observer.
    The electric field resulting from a high-altitude nuclear 
detonation can be on the order of 50 kilovolts per meter with a 
rise time on the order of ten nanoseconds and a decay time to 
half-maximum of 200 nanoseconds.
    A localized lightning strike, by comparison, 10 meters 
away, has a higher peak amplitude, but it occurs later than the 
EMP, and, therefore, protection may be available.
    It is important to point out that the peak amplitude, 
signal rise rate, and duration are not uniform over the 
illuminated area. The largest peak intensities of the EMP 
signal occur in that region of the illuminated area where the 
line of sight to the burst is perpendicular to the earth's 
magnetic field.
    At the edge of the illuminated area, farthest toward the 
horizon as seen from the burst, the peak field intensity will 
be lower and the EMP fields will be somewhat longer-lasting 
than in the areas where the peak intensities are largest, but 
even there, the levels can be very significant.
    The EMP threat is unique in two respects. First, its peak 
field amplitude and rise rate are high. These features of EMP 
will induce potentially damaging voltages and currents in 
unprotected electronic circuits and components.
    Second, the area covered by an EMP signal can be immense. 
As a consequence, large portions of extended power and 
communications networks, for example, can be simultaneously put 
at risk. Such far-reaching effects are peculiar to EMP. Neither 
natural phenomena nor any other nuclear weapon effects are so 
widespread.
    In summary, we have found that the phenomena are very real 
and well understood by the nuclear weapons effects community. 
Our strategic systems and our command and control and 
communications infrastructure have been designed and built to 
survive and operate effectively in such an environment. 
However, there would likely be pronounced effects on the 
civilian infrastructure from such a pulse.
    The magnitude and extent of these effects is difficult even 
to estimate, and, therefore, it is probably not feasible to 
completely protect the entire infrastructure from the effects 
of such a pulse.
    This concludes my statement. I hope that I have been able 
to give you an idea of the phenomenology associated with EMP. I 
sincerely thank you for the opportunity to address the 
Committee.
    [Mr. Wiltsie's statement may be found in the appendix.]
    Chairman Bartlett. Thank you very much.
    Dr. Soper.

STATEMENT OF MR. GORDON K. SOPER, GROUP VICE PRESIDENT, DEFENSE 
                          GROUP, INC.

    Dr. Soper. Thank you. Good afternoon, Mr. Chairman, ladies 
and gentlemen. I am Gordon Soper. I am the Group Vice President 
of a small research company called Defense Group, Inc.
    I certainly appreciate the opportunity to speak today, 
first, as a representative of small business and as a recent 
graduate of 34 years of federal service with the Department of 
Defense.
    As you noted, our formal written testimony has been 
inserted in the record. I will confine my brief oral remarks to 
a summarization of that and, obviously, be prepared to respond 
to your questions.
    You mentioned, Mr. Chairman, that almost two years ago, the 
Chairman of the President's Commission on what was called the 
Critical Infrastructure Protection Program testified before the 
R&D Subcommittee of the, then, House National Security 
Committee, and I quote, ``the threat of a major debilitating 
EMP attack generated by a nuclear weapon is remote at this 
time.''
    In the same testimony, the Chairman said, and I quote 
again, ``Such an event is so unlikely and difficult to achieve 
that I do not believe it warrants serious consideration at this 
time.''
    I believe we are here this afternoon to keep the debate on 
this important issue open, and I thank you for that 
opportunity.
    Granted, an EMP attack is not very likely and it is most 
certainly difficult to achieve. But the major potential 
consequences for our national infrastructure call for a more 
considered response.
    I do not believe that EMP is being considered in the 
ongoing infrastructure protection program. And, except for 
hearings such as this, the government is devoting relatively 
little attention to this problem, in my judgment.
    I know, as you do, that there are many tough choices facing 
our country today. We are at war. There are many and important 
demands on our taxpayers' dollars. In the face of these 
demands, is it prudent to spend some, if any, of these precious 
resources on a threat that, to many people, seems far too 
remote?
    I personally believe, however remote, that an EMP attack 
would result in unacceptable disruption and damage to our 
commercial electronic infrastructure. We thus are faced with an 
obvious dilemma. It is without question that ``unprotected'' 
electronic systems must be considered at risk when exposed to 
the environments and effects of nuclear weapon detonations. 
Unfortunately, the level of risk and the consequences of 
continental-wide exposure of our electronic infrastructure are 
simply not calculable to any degree of certainty.
    Arguments have been put forth that our electronics 
infrastructure is of itself so complex, so vast, and so 
redundant that we can be confident that not all systems will 
fail simultaneously when exposed to a nuclear explosion 
environment, particularly a high-altitude nuclear detonation.
    It is fair, on the other hand, to assume that upset and 
damage will occur, but it is impossible on this scale to 
predict precisely how extensive the damage will be or to 
predict confidently beforehand whether the system will operate 
adequately after being exposed to this threat.
    Perhaps as a starting point at trying to quantify a 
``protection'' plan for a typical commercial electronics 
infrastructure, government and industry, working as partners, 
could begin with a three-point approach.
    First, we must focus on protecting those elements that we 
cannot afford to lose. Next, we should develop a procedure for 
restarting those systems after distributed, wide-area system 
failures. Finally, we must be prepared to accept a certain 
degree of risk for those elements that we simply cannot afford 
to adequately protect. But we must know which is which.
    I have worked on this problem my entire professional 
career. As my colleague Ron Wiltsie has said, EMP is real. EMP 
will be generated if nuclear weapons go off. EMP energy, with 
certainty, will be transmitted into our microelectronics-based 
society. There truly could be a serious, and, in my opinion, 
perhaps unacceptable, impact on our civilian infrastructure.
    I believe that this matter deserves greater attention than 
it is being given today. We, as a nation, need a balanced, a 
rational, and a careful review of this issue to better 
understand the potential effects on our increasingly 
sophisticated and, perhaps, increasingly fragile electronics 
and the aggregate effects on the fast-growing, interconnected, 
and interrelated networks of systems that make up our civilian 
and military infrastructure.
    One final word or caution, if I may. Look at us. We are 
getting old. Well, let me speak for myself, at least. The 
intellectual foundation that underpins this esoteric science is 
atrophying. I do not see it being replaced. This is not a 
growth industry for businesses, large or small.
    We need your support, Mr. Chairman. You and your colleagues 
must help to ensure stable budgets for the limited research 
that is being sponsored by organizations such as the Defense 
Threat Reduction Agency and the work that is being done at our 
national laboratories. Without this support, small businesses 
like mine, like DGI, will not be able to hire and to train the 
young scientists that will carry on this effort. The threat is 
not going to go away.
    Thank you for the opportunity to be here today. I enjoyed 
talking to you.
    [Dr. Soper's statement may be found in the appendix.]
    Chairman Bartlett. Thank you very much for your testimony.
    Tom Clancy may not know all of you, and if he knew all of 
you, he may not have introduced me to Dr. Lowell Wood the way 
he did, because he indicated to me that Dr. Wood was the 
smartest man hired by the U.S. Government, so I was anxious to 
meet Dr. Wood, and I will say that, after meeting him, I am not 
sure that I would argue with Tom Clancy. So, I am really 
pleased to have Dr. Lowell Wood here today.
    Dr. Wood.

  STATEMENT OF MR. LOWELL WOOD, SENIOR STAFF MEMBER, LAWRENCE 
                 LIVERMORE NATIONAL LABORATORY

    Dr. Wood. Thank you very much, Mr. Chairman. Both you and 
our mutual friend, Tom Clancy, are much too kind.
    Electromagnetic pulses, EMP, generated by high-altitude 
nuclear explosions have riveted the attention of the military 
nuclear technical community for three-and-a-half decades, since 
the first comparatively modest one very unexpectedly and 
abruptly turned off the lights over a few million square miles 
of the mid-Pacific.
    This EMP also shut down radio stations and street lighting 
systems, turned off cars, burned out telephone systems, and 
wreaked other mischief throughout the Hawaiian Islands, nearly 
1000 miles distant from ground zero.
    The potential for even a single high-altitude explosion of 
a more deliberate nature to impose continental-scale 
devastation of much of the equipment of modern civilization and 
of modern warfare soon became clear. EMP became a technological 
substrate of the black humor of the times: suppose they gave a 
war and nobody came?
    It was EMP-imposed wreckage, at least as much as that due 
to blast, fire, and fallout, which sobered detailed studies of 
the post-nuclear attack recovery process during the 1970s, when 
essentially nothing electrical or electronic could be relied 
upon to work, even in rural areas far from nuclear blasts.
    It was surprisingly difficult to bootstrap national 
recovery and post-attack America, in these studies, remains 
stuck in the very early 20th century until electrical equipment 
and electronic components began to trickle in to a Jeffersonian 
America from abroad.
    For obvious reasons, the entire topic of EMP was highly 
classified in those times and congressional oversight was 
generally circumspect and conducted in closed session. Indeed, 
this is the first oversight hearing of which I am aware which 
has taken place outside the rather cloistered confines of the 
Armed Services Committees and only the second open one held by 
any committee.
    And I congratulate you, Mr. Chairman, for the extraordinary 
vision and dedication to bedrock, albeit less fashionable 
aspects of the nation's security and well being, which are 
evidenced by today's hearing.
    The third decade following the high-altitude tests of the 
early sixties saw the expenditure of roughly five billion 
present-day dollars by the Defense Special Weapons Agency, now 
part of the Defense Threat Reduction Agency, and its 
predecessors, the Defense Atomic Support Agency and the Defense 
Nuclear Agency, to develop a detailed, working-level 
understanding of EMP and related nuclear effects phenomena and 
the consequences for both our own and our adversaries' military 
hardware systems.
    Substantially larger sums were expended by other components 
of the DOD in order to express this understanding as force and 
being, primarily to defend especially vital military equipment 
against EMP's destructive effects.
    Regrettably, these defensive efforts directed towards 
strategic military capabilities were not perfectly fruitful. To 
be sure, there were some outstanding success stories. However, 
a number of important military systems were quite incompletely 
defended and some were defended only on paper.
    Even more regrettable was the fact that much military 
hardware and systems, especially those not considered vital to 
the conduct of strategic war, were not hardened against the EMP 
very much at all.
    As a result, at the present time, our national profile of 
vulnerability to EMP attack is highly uneven, with large parts 
of our military machine and virtually all of the equipment 
undergirding modern American civilization being EMP-vulnerable.
    Through the end of the cold war, our national posture, 
though unfortunate, arguably could be tolerated. Only one 
nation, the Soviet Union, could mount EMP attacks on the U.S. 
and likely only as the first major punch of a fight to the 
death conducted with EMP-hardened means.
    Indicated responses to any EMP attack then were clear. To 
be sure, the maximum Soviet capability to impose such attacks 
still exists today, as you noted, in your opening statement, 
Mr. Chairman, in the strategic forces of the Russian 
federation.
    And I unhesitatingly predict that it will continue to exist 
for many decades to come. Russian rulers, even the Russian 
version of liberal democratic leaders, if we ever see such, 
will not readily forsake such a whip hand over the entire 
planet.
    Today, we watch the ongoing diffusion by purchase and 
perhaps by illicit routes, at least as much as by indigenous 
development, of nuclear weapons technologies throughout the 
third world. At the same time, we are compelled to acknowledge 
the unique opportunities for defeating both advanced U.S. 
forces abroad and the American nation itself, which are offered 
to our adversaries by EMP-centered attacks.
    You have heard about the revolution in military affairs and 
the promise which it extends for far greater effectiveness of a 
post-revolutionary American military. You have likely heard far 
less about the classic Achilles heel which EMP poses to any 
information-intensive military force completely dependent for 
its electronic data flows on EMP-fragile integrated circuits.
    There arises the regrettably real prospect that EMP 
weaponry, assuredly if nuclear and, perhaps, even if non-
nuclear, could abruptly transform a future Desert Storm-type 
operation from another historic victory to a memorable American 
defeat.
    Such EMP weaponry could also be deployed with only slightly 
more advanced means from space to rip up the electrical and 
electronic infrastructure of the American homeland. Thus, the 
de facto national policy of nakedness to all of our potentially 
EMP-armed enemies takes on ever more the character of national 
scale masochism. It is perverse and irrational and is assuredly 
not necessary or foreordained.
    Relative to the two years since any committee of the House 
last held a hearing on this subject, it is useful to ask what 
has changed and what has not.
    The natural laws governing EMP have not changed, nor has 
the EMP-oriented Russian strategic nuclear war machine. 
American preparedness against EMP has not improved. Rather, the 
operation of Moore's Law continues to endow our national 
infrastructure with ever higher performance and thus more 
innately fragile electronics.
    Notably, third world nuclear weaponry capabilities and 
long-range rocketry both continue to advance rapidly. 
Specifically North Korea, a nation which has elected to lose 
perhaps as much as a tenth of its population to starvation over 
the past few years and which is still formally at war with the 
United Nations and with the United States, nonetheless has been 
allowed to gain nuclear weapons capabilities and is, even now, 
on the threshold of intercontinental ballistic missile 
ownership.
    I am sure that if my colleague, Robert Walpole, could be 
with us today, he would emphasize those points, as he has in 
recent briefings, both public and private.
    In short, our previously low to mediocre national position 
vis-a-vis EMP attacks has deteriorated remarkably over the past 
two years, and it is not exaggerating to forecast major peril. 
It is therefore heartening to see the Congress remain apprised 
of the EMP threat, for too much of the executive branch has 
seemingly resigned itself or, worse by far, is actively 
diluting itself, as my colleague, Dr. Soper, just quoted 
regarding the nature and severity of EMP.
    The executive branch is currently struggling to prepare in 
a timely manner to cope with the so-called Y2K problem. You 
should be devoting far more concern to the issue of EMP effects 
on the nation's infrastructure, for the former, Y2K problem, 
now is a matter of possible inconvenience, here and there, for 
a duration of a few days, while the latter, the EMP threat, is 
truly a life-and-death issue for the nation.
    In my prepared statement, I offer a sketch of a plan for a 
congressional initiative to harden the civilian aspects of the 
national infrastructure. I believe that such a plan could be 
implemented quickly and with modest cost and could confer major 
benefits to the nation's security against this most 
asymmetrical and unconventional of foreign threats on a few-
year time scale.
    This plan leverages the substantial and praiseworthy 
progress being made by the services in quickly and 
inexpensively hardening COTS, commercial off-the-shelf, 
hardware of many types for tactical use in EMP-shadowed 
circumstances.
    Such progress may be made with very modest means indeed. 
Indeed, means such as these, the sort of means that you can 
pick up at the neighborhood corner electronics shop, what has 
kind of replaced the dime store in modern America.
    I look forward to responding to any questions or comments 
which you and your colleagues might have regarding this plan.
    For the sake of America's future in a nuclear, multi-polar 
world, one in which diffusion of nuclear weaponry and the means 
of delivering it at high altitude presently take place more 
rapidly than at any other time in history, I appeal most 
earnestly to you and your colleagues to remain seized of this 
vital issue, for it is one of the few which in and of itself 
carries the potential of military victory or defeat, perhaps 
even of national well being with the devastation of American 
civilization.
    Thank you, Mr. Chairman. I will be grateful if my prepared 
statement can be included in the hearing record as you 
indicated.
    [Dr. Wood's statement may be found in the appendix.]
    Chairman Bartlett. Thank you. Thank you very much.
    Col. Skinner.

   STATEMENT OF COL. RICHARD W. SKINNER, PRINCIPAL DIRECTOR, 
 COMMAND, CONTROL, COMMUNICATIONS, INTELLIGENCE, SURVEILLANCE, 
RECONNAISSANCE AND SPACE, OFFICE OF THE ASSISTANT SECRETARY OF 
                            DEFENSE

    Col. Skinner. Thank you, Mr. Chairman. I am Rick Skinner. I 
currently serve as the Principal Director, Command, Control, 
Communications, Intelligence, Surveillance, Reconnaissance and 
Space Systems in the Office of the Secretary of Defense.
    And thank you for the opportunity to address the community 
on an issue that is of some importance to the Department of 
Defense, that is, electromagnetic pulse and, similarly, radio 
frequency weapons. I have submitted a statement for the record, 
but I would like to summarize a few key points for the 
Committee.
    We know the detonation of a nuclear weapon above the 
earth's atmosphere will produce electromagnetic pulse that can, 
under certain circumstances, damage electronic equipment. If 
the equipment was built and maintained to EMP-hardened 
specification, the energy will be safely dissipated.
    But, in the case of commercial equipment, we do not know 
what margins or tolerances have been built into this equipment, 
so it is difficult to predict the extent to which temporary or 
permanent disruption to the equipment's normal operation will 
be experienced. When we put this equipment into a complex 
network, it is difficult to predict how the network will 
respond to an EMP event.
    While EMP is a threat, it is not considered a highly 
probable threat in today's world. The President's Commission on 
Critical Infrastructure Protection, led by retired General Tom 
Marsh, recently assessed threats and vulnerabilities to the 
national interest and the national infrastructure.
    The commission's review included telecommunications, 
electrical power grids, oil and gas systems, banking and 
financial systems, emergency services and the continuity of 
government.
    The commission reported that an EMP event would potentially 
devastate portions of the national infrastructure. At the same 
time, the commission found EMP is one of the least likely 
threats. The commission also considered radio frequency 
weapons. The commission concluded that our adversaries could 
find easier ways to do more damage than by either use of EMP or 
RF weapons and that, because of this, the potential for such an 
event was unlikely.
    While an unlikely threat, EMP and RF weapons would have 
serious impact in military command and control systems, so we 
have programmed a study and developed responses to this threat. 
We spend approximately $25 million a year on these activities.
    We have a defense technology objective, that is, a science 
and technology priority, for balanced electromagnetic hardening 
technology. The goal of this effort is to develop and 
demonstrate innovative and affordable methods for integrated 
hardening of systems and testing of military applications 
against high-power microwave and high-altitude electromagnetic 
pulse effects.
    Some of the efforts underway within this technology 
objective are the development of a personal computer-based EMP 
environment and coupling software model, a generic, simple-to-
install hardware kit for hardening commercial off-the-shelf 
computers, and a radio frequency attack detector we call a 
witness chip. There are other activities within this technology 
objective, but I thought these three may be of most interest to 
you.
    Based on DOD-sponsored research and other studies from the 
government and private sector, we have found several things you 
may find useful. In general, consumer electronics may be upset, 
but often are not permanently damaged by low to moderate levels 
of EMP. There are more detailed summaries of our findings in 
this area in my statement for the record.
    Number two, the move from copper communications cable to 
fiber optics will create a more resilient infrastructure. Fiber 
optics do not act as an antenna to collect electromagnetic 
energy and therefore reduce EMP vulnerabilities.
    Three, the widespread use of automated systems and 
factories and medical systems has resulted in the design and 
manufacture of commercial equipment which is highly immune to 
noisy electrical environments which are similar to EMP. These 
design concepts are being employed in other consumer 
electronics as well. In fact, as Lowell showed, you can go to 
Radio Shack and find a RF surge protector which, in many ways, 
represents some of the techniques we would use to protect a 
system against EMP.
    Number four, and most important, perhaps, is that the life 
cycle maintenance of EMP protection must be addressed if EMP is 
a concern. This means that modifications, inspections, repair 
actions, and operations must take into account the EMP 
integrity of the equipment. This additional operations and 
maintenance burden must be addressed whenever a decision is 
made to protect against EMP vulnerabilities.
    You may also be interested in another effort which is now 
just getting underway because it is a small business innovative 
research activity which the U.S. army is soliciting contracts 
for. The effort has the title Mitigation of Magnetohydrodynamic 
Electromagnetic Pulse Effects on Long Lines for Missile Defense 
Systems and Infrastructure Protection.
    The objective of the program is to identify, develop, and 
demonstrate low-cost techniques to protect military and 
critical infrastructure systems with long power and 
communications lines from the effects of EMP.
    We would hope that the results of this and similar efforts 
will assist in our understanding of how best to address the 
potential EMP threat to our military capability and our 
national infrastructure.
    In summary, we know that while an unlikely event EMP could 
inflict damage to the national infrastructure. We have taken 
measures to ensure the critical military command and control 
structures the nation depends on to respond to such an event 
are resilient to these threats.
    There is concern that a combination of the commercial power 
grid, telecommunications networks in the private sector, and 
computing systems remains vulnerable to widespread outages and 
upsets due to EMP.
    Detailed analysis of critical civilian systems would be 
useful to better understand the magnitude of the problem. We 
look to the government's critical infrastructure protection 
program to address these concerns.
    Mr. Chairman, on behalf of the Office of the Secretary of 
Defense, I appreciate the opportunity to present these comments 
on EMP-related programs and look forward to your questions.
    [Col. Skinner's statement may be found in the appendix.]
    Chairman Bartlett. Thank you very much.
    What I would like to do first is to get on the record the 
recent references to EMP and such public things as what 
``Nuclear Train,'' I think, was a recent two-part series on 
television----
    Dr. Soper. ``Atomic Train,'' I think.
    Chairman Bartlett. What was it?
    Dr. Soper. ``Atomic Train.''
    Chairman Bartlett. ``Atomic Train?'' ``Atomic Train.''
    How many such references to EMP can the members of the 
panel remember so that we can get it on the record?
    What I want to do is to substantiate that we are not giving 
away national secrets in talking about EMP, that it is out 
there in the public.
    What other references can you remember? One of you had a 
list of these in your testimony, I remember.
    Dr. Soper. I referred to at least three. I think the first 
one, I remember, was a made-for-T.V. movie called ``The Day 
After.'' The reference to EMP in the ``Atomic Train,'' and a 
reference in a James Bond Movie, ``Golden Eye,'' and at least 
one other, ``Pandora's Box,'' I think. And there have been a 
number of articles in Popular Mechanics-like publications that 
talk about EMP.
    I have written a few articles for publications like Defense 
Electronics in an effort to, at least, demystify EMP and make 
the public aware of this relatively esoteric subject.
    But, at any rate, attempts have been made at bringing this 
issue to the public. There are no formal programs that are 
sponsored by the government. FEMA, the Federal Emergency 
Management Agency, for example, might be one that you would 
expect. I just do not know. But those few that I have mentioned 
are the ones that I remember where EMP was mentioned.
    And as I think I said in my written testimony, and my 
colleague Dr. Wood would appreciate this, some severe liberties 
were taken with the physics and the description of EMP in some 
of these movies and publications. So one needs to be careful. 
While they may be describing EMP, the underlying physics would 
perhaps not pass a graduate exam at the University of 
Tennessee, my alma mater.
    Chairman Bartlett. Dr. Wood?
    Dr. Wood. Mr. Chairman, I also was concerned that, since 
this was an open hearing, that matters be traceable to public 
documents of the government, and the one that I would 
particularly commend to the Committee's attention is a book, 
actually a series, that were sponsored for many years by the 
old United States Atomic Energy Commission, edited by Samuel 
Glastone and Philip Dolan, entitled ``The Effects of Nuclear 
Weapons.''
    This is a volume of most of a thousand pages which 
discusses nuclear weaponry effects from the standpoint, if you 
will, of a military officer or a senior policy-oriented 
civilian to tell them, basically, how nuclear weapons perform 
and what their effects in the environment are.
    There is a quite extensive discussion of EMP there, 
including some of its quantitative features, and so it is 
certainly feasible to speak in public rather extensively and in 
fair detail of what the effects of EMP are.
    The matters which the government still considers classified 
are the details in respect to how nuclear weaponry, 
particularly specially designed nuclear weaponry, might produce 
particularly large bursts of EMP or bursts of EMP that have 
very unusual characteristics that could defeat defensive means. 
Those are the things, and the only things, which are still 
withheld in any public debate.
    Chairman Bartlett. Recently in the news was an indication 
that among those things which the Chinese have been able to 
secure from our national labs was the design of an EMP-enhanced 
weapon. That is correct? Are any of you familiar with that?
    Dr. Wood. I am not able to speak to that, Mr. Chairman. I 
am sorry.
    Chairman Bartlett. Okay. This was in the public press that 
this was one of the several things that they, presumably, had 
been able to get from our national laboratories.
    Two other public references----
    Dr. Wood. I will be happy to speak to you about that 
privately.
    Chairman Bartlett. Yes. All I am referencing is what was in 
the public press, that that was one of the things which they 
were able to get from our national laboratories.
    I first contacted Tom Clancy because in one of his books, 
he had an EMP scenario, and when I first began an exploration 
of this, I knew Tom Clancy did good research, and so that is 
how I got introduced to Dr. Wood, when I called Tom. He 
suggested he knew little more than was in his book but that I 
could learn a great deal more from Dr. Wood.
    A number of years ago, there was a series on television 
called ``Amerika,'' spelled with a K. You may remember this 
series. It was a made-for-television series. It was several 
episodes, several different evenings were spent with the whole 
scenario. And some bombs were dropped on Central America and 
one of the things that happened was that cars quit running, 
obvious reference to EMP effect. So you can also find it there.
    I just wanted to, at the beginning, indicate that this was 
in the public knowledge if one chose to look. Although most 
people are not aware of it, it is there, it is out there. We 
are not talking about something that the world does not know.
    Mr. Wiltsie, I wonder if you could show for us again your 
EMP ground coverage slide. Could you do that? Would that be 
feasible to show that?
    Mr. Wiltsie. Can I have the third slide, please?
    Chairman Bartlett. This is the one. The Rumsfeld Report 
indicated that they had determined that third world countries 
were now taking everyday surface ships and modifying them so 
that you could put missile launchers, like a Scud launcher, on 
one of those ships. As I understand it, the common Scud gets an 
apogee of about 180 miles, is that correct?
    Dr. Wood. The extended range Scuds at maximum range, sir, 
the ones that we saw in Desert Storm, got to about 150 
kilometers. The M-9s that the Chinese have been selling into 
the third world will, indeed, get to above 200 kilometers 
altitude when you are firing at maximum range. So, yes, 150 to 
250 kilometers are the peak altitudes.
    Chairman Bartlett. Which of those circles there would 
indicate the range for the coverage for a Scud?
    Mr. Wiltsie. The tan circle is the height of burst of about 
100 kilometers, Congressman, and so it is somewhere between the 
inside of this and about the middle of it, so you get some 
significant coverage over the continental United States with 
that type of weapon.
    Chairman Bartlett. But launched from the sea, it could not 
get that far inland? How far inland could it get, at apogee?
    Mr. Wiltsie. Well, it depends on the launch platform and 
how close you bring it to the continental United States and 
what the capability of the launch system is that you have on 
board that merchant ship.
    I would point out that, early in the U.S. ballistic missile 
program, the sea-launched ballistic missiles, we fired some 
from merchant-type ships for test purposes prior to going to 
sea.
    Dr. Wood. Basically, Mr. Chairman, if you move that surface 
zero from where it is over Kansas or Nebraska, you move that 
back to Washington D.C., it would be feasible for a ship on the 
high seas launching a Desert Storm-type Iraqi Scud to put that 
surface zero anywhere in the Virginia-West Virginia area, as I 
said, firing outside American territorial waters.
    Chairman Bartlett. So if the center of that circle is now 
the West Virginia area, it would cover most of the eastern 
United States.
    Mr. Wiltsie. Yes.
    Chairman Bartlett. Perhaps excluding south Florida and 
Maine?
    Dr. Wood. Well, we used to refer in cold war days to a 
blue-preferred red attack, Mr. Chairman, and that is the West-
Coasters preferred anti-American attack. You drop it on the 
East Coast.
    Chairman Bartlett. The point that I am trying to make here 
is that the capability exists for a third world power with a 
commercial ship modified to put a launcher on it, Scud 
launchers, essentially every third world nation has a Scud 
launcher, and if they do not have an atomic weapon, they 
perhaps can get one from a Russian who has not been paid for 
the past six months. They are becoming more widely available. 
Several countries have them now.
    The point I was trying to get was that this is not a 
potential for 20 years from now. It is a potential for here and 
now, is it not?
    Dr. Wood. The Rumsfeld Commission last summer, Mr. 
Chairman, specifically raised that possibility. Since that 
time, you have been able to read in the newspapers, that the 
Iranians are testing just such a missile in the Caspian Sea, 
that is to say a sea-launched Scud-type missile.
    We are also aware of the fact, sir, that last summer, the 
Iranians tested the Shahap III missile, which had a range of 
800 kilometers, which is greater than that of the Iraqi 
missiles in Desert Storm.
    So there is a specific example of a nation which the 
current administration repeatedly has cited as a leading state 
supporter of international terrorism which the administration 
does not credit with currently owning nuclear weapons, but does 
own nuclear-capable missiles which have a range greater than 
the Iraqis demonstrated in Desert Storm and which missile 
classes are being tested in barge launches in the Caspian Sea, 
and it is very difficult to believe that they intend to deploy 
those missiles in the Caspian Sea.
    Chairman Bartlett. Thank you.
    Mr. Wiltsie, if you were to hypothesize a launch from the 
sea--and, by the way, Vladimir Lukin indicated that there would 
be little risk of retaliation if the launch occurred from the 
sea simply because you would not know which of the dozen 
countries capable of the launch had actually done it, so who 
are you going to incinerate if there is a launch from the sea--
but if you are going to hypothesize----
    Dr. Wood. That is a classic example, Mr. Chairman.
    Chairman Bartlett. Yes, sir.
    Dr. Wood. Chairman Lukin, of course, as you indicated in 
your statement, has a very extended background with respect to 
Soviet, and now Russian, national security matters. And that is 
a prospect which was very extensively considered in times past.
    It is difficult to take his statements as anything other 
than coming from a very knowledgeable expert on the other side.
    Chairman Bartlett. Thank you. Yes, he was the ambassador, 
as I mentioned, at the end of the Bush administration, the 
beginning of this administration. He is now chairman of foreign 
affairs.
    Dr. Wood. He is generally considered to be one of the most 
capable Soviet ambassadors in recent decades.
    Chairman Bartlett. Thank you.
    Dr. Wood. If I might mention one other item referring to 
the Duma debate. In the Duma debate a few years ago, I believe 
less than three years ago, with respect to whether the Russian 
federations should ratify the comprehensive test ban treaty, 
one of the statements which was offered, first to Mr. Lukin's 
defense committee of the Duma, and then in open debate in the 
Duma, from the Russian defense minister was a statement that 
the comprehensive test ban should not be ratified by the 
Russian confederation because it would cut off the vital phases 
of development of enhanced EMP weaponry by the Russian 
federation, and this was cited by the Russian defense minister 
as, from his standpoint, one of the primary reasons why the 
CTBT should not be ratified by Russia.
    Chairman Bartlett. Thank you.
    I would like to return for just a moment to the coverage 
slide and ask Mr. Wiltsie----
    Mr. Wiltsie. Can we dim the lights again, please?
    Chairman Bartlett. If we were to hypothesize four launches, 
northeast, southeast, northwest, and southwest, with a Scud, 
which is now available to a lot of different powers, would that 
blanket all of the United States? It would appear to me that it 
would, with considerable overlap.
    Mr. Wiltsie. There is a good possibility that it could. You 
would have to be careful where you placed your launch 
platforms.
    You would have to, perhaps, get a launch platform into the 
Gulf of Mexico area and up off the northwest coast of the 
United States, but I think if you are using merchant ships with 
Scud-like missiles, yes, you can largely cover the continental 
United States with four simultaneous launches and you will 
probably have some increased effect in some areas by the 
multiple nature of the launches. More than one launch causes 
you more severe problems.
    Chairman Bartlett. Dr. Soper, what sort of intensity of 
lay-down would you expect from that kind of a scenario?
    Dr. Soper. If I remember correctly, some work was done by 
the Defense Nuclear Agency, now part of the Defense Threat 
Reduction Agency, that posed the question of how many high-
altitude detonations would it take to essentially blanket the 
United States with EMP in the tens of kilovolts per meter 
range?
    And I know the answer to that, and the reason I am not 
stating it is because I do not remember whether it is 
classified or not and I will be glad to address that with you 
off line.
    Chairman Bartlett. I have seen, Dr. Wood, public statements 
to the effect that a single large--that is a megaton or more--
weapon detonated at 300 miles high over Nebraska would produce 
at the margins of our country 10 to 20 kilovolts. Is that not 
correct?
    Dr. Wood. It is certainly the case, sir, that megaton-class 
weaponry is capable of doing that. However, it should be 
realized that it is also possible to do that with specially 
designed weapons whose yield would be much, much, much less 
than a megaton.
    Chairman Bartlett. It might be worth noting that the 
weapons that the Chinese have on 18 of their Long March 
missiles which, presumably, are capable of reaching our 
country, are 4.4 megatons, correct?
    Dr. Wood. That is the approximate yield which is publicly 
attributed to them, sir, but the point is that the EMP yield of 
a nuclear weapon is not at all well correlated necessarily with 
its explosive yield. You can get much larger yields with a 
specially designed 10 kiloton device, you can get much larger 
electromagnetic pulses with a specially designed kiloton device 
than you can with a crudely designed 10 megaton device. The EMP 
output of a device, its EMP consequences, are very poorly 
related to its total explosive yield.
    Chairman Bartlett. But for the record, is it not true that 
EMP is an unavoidable consequence of every nuclear explosion?
    Dr. Wood. Indeed.
    Chairman Bartlett. So whether you are aiming for it or not, 
you get an EMP----
    Dr. Wood. Oh yes. You kind of get the base output, no 
matter what you do. If you wish to maximize the EMP 
consequences of a nuclear explosion, you can make those 
consequences be very, very severe or quite modest yield. But, 
in general, for a given class of device, as you increase the 
yield, the EMP consequences of it will increase, but the point 
that I am trying to make is that if you hop from class to class 
of nuclear weaponry, you can find classes in which the EMP 
yield can be very, very large, even though the explosive yield 
is very modest indeed.
    Dr. Soper. One aspect that we should remember is, for the 
most part, we are focusing on what is generally called high-
altitude EMP. The unique aspect of a high altitude nuclear 
detonation is that it can be ``see'' horizon-to-horizon and 
places at risk, simultaneously, many electronic systems.
    Bursts on or near the ground produce localized, but very 
intense, electromagnetic environments as well that can couple 
into electrical conductors, antennas and the like. It does not 
have the great expanse, of course, that a high-altitude nuclear 
detonation does.
    Dr. Wood. That is a very good point of Dr. Soper's. My 
remarks with respect to different classes of nuclear explosives 
and their EMP consequences were concerned with high-altitude 
bursts that have very large area coverage.
    Mr. Wiltsie. I would point out, Mr. Congressman, that DTRA, 
in their old days, it was DNA and so forth, did some 
calculations that gave you 20 kilovolts per meter for a burst 
at about 300 kilometers over the large area of the United 
States and the only thing I am not sure of is what the yield 
was that they used on that weapon. Those calculations have been 
done.
    Chairman Bartlett. What kind of damage would you expect 
from 10 to 20 thousand volts, that is 10 to 20 kilovolts? What 
would you expect in microelectronic equipment?
    Dr. Wood. I know of no microelectronic equipment, per se, 
that could stand anything like that type of electric field. As 
I commented in my opening statement and also in my prepared 
statement, modern microelectronics are becoming ever more 
fragile with the passage of time, as far as their intrinsic 
hardness is concerned, because the elementary devices, the 
individual transistors, become ever smaller and, thus, it takes 
a smaller and smaller amount of EMP-imposed power to destroy 
those devices.
    Now, it is indeed the case that, because of the very high 
frequency and that ever higher frequency at which such devices 
operate these days, that it has become highly desirable to wrap 
them in metallic wrappers, if you will, to keep one device from 
generating electromagnetic interference which would impair the 
proper operation of the neighboring device.
    The Federal Communications Commission, for instance, 
requires certain types of decoupling and of wrappers, 
conductive wrappers, for such equipment. And so you have two 
countervailing effects: the devices themselves, modern 
integrated circuits, are ever more fragile, but, because of 
their high frequency of operation, they are wrapped in things 
which make them ever more robust.
    And so the product of a very large number and a very small 
number is what gives you the net EMP hardness for a system. 
That number, frankly, can wander all over the map. Some systems 
can be amazingly tough, even though they are composed of 
exceedingly fragile components inside them. Some systems which, 
on the other hand, are not extremely well decoupled from the 
environment may be very fragile, indeed, even though they have 
rather old components that are intrinsically fairly robust.
    So you really have to test individual pieces of equipment 
and you have to test systems and, very, very crucially, Mr. 
Chairman, you have to test them in realistic circumstances. 
Some of the testing I have seen done is kind of comically bad 
in that they will take a piece of computer gear and they will 
take all the cables off of it and they will set it in the test 
environment and they will not plug it in to a power line and 
they will test it and then say, ``My goodness, look how robust 
it is.''
    But if you bothered to plug in an a modem or you bothered 
to plug in a power line or, particularly, if you bothered to 
turn the power on so that the computer was running at the time, 
you would discover a very, very different EMP vulnerability and 
it would be a much more severe vulnerability.
    So it is important to look at systems and it is important 
to look at them in realistic operating conditions, not 
contrived testing conditions. And some of the contrived ones 
are remarkably misleading. But in realistic testing conditions, 
you have to look at them and the good news is it is pretty easy 
to do that.
    Chairman Bartlett. Dr. Soper.
    Dr. Soper. I think Dr. Wood hit on a very important comment 
that I would like to amplify a little bit. Namely, it is 
engineeringly simple to design an EMP-protected enclosure. 
Volumes the size of this room are not difficult to protect and 
at a not-exorbitant cost. But the one thing that Dr. Wood 
pointed out, and I think needs mentioning, is that we must have 
the ability to test the improvements that we have made, in 
order to demonstrate that the protection that you have provided 
do, indeed, provide that protection.
    When we were doing underground nuclear testing--at least 
the Department of Defense nuclear testing on effects--not one 
time did we put a system underground that we had tested before 
or had designed as well as we could, that we did not find a 
problem. Not one single time.
    And analysis allows you to learn more and more about what 
you know about and absolutely nothing about what you do not 
know about. It is the unknown unknowns that, quite often, 
create the large problem.
    And as I scan the audience, I see a few people here, today, 
that helped in the very basic EMP protection designs that, if 
used and if tested--and there are ways to test those designs so 
I do not mean to imply that EMP needs to be tested in an 
underground environment--that if it is realistically tested, 
you can, with some degree of certainty, know that the equipment 
inside will survive.
    It is obviously unrealistic to test at one time an entire 
continent-wide electronics-based infrastructure. You could do 
it with a high-altitude nuclear test, but I suspect that that 
is environmentally not wise.
    Dr. Wood. You will get to do the environmental impacts 
statement on that.
    Dr. Soper. So I think what Dr. Wood is pointing out is that 
there are ways to approach the problem with EMP and there are 
ways to protect against it, realistically and cost-effectively 
and with some surety, but it needs to be done carefully and it, 
in general, is cheaper if you do it at the very beginning than 
if you do it later in its life cycle when you decide, ``Oh, 
there is a problem here and I need to go back and protect.''
    Dr. Wood. As a specific example, Mr. Chairman, the type of 
EMP robustness that is associated with power line surges is 
feasible to gain for the cost of two or three dollars worth of 
parts. Literally, you can protect a computer system--a personal 
computer system, for instance, may cost two or three thousand 
dollars--for a tenth of a percent if you design it in from the 
beginning. The total cost might be has high as 1 percent.
    This is discovered not only by people who are working 
commercially but even those folks in the armed forces that 
trying to take commercial equipment and adapt it for military 
purposes, hardening against EMP, discovering that very modest 
changes, things that can be done quickly and easily even after 
the equipment is manufactured and is sold to the DOD, 
discovering that costs of the order of 1 percent, 2 percent, 3 
percent, are not at all atypical as far as gaining the EMP 
hardening is concerned.
    It is the doing of it and the testing and the certification 
of it which is the really important thing. Dr. Soper made a 
very crucial point and that is when military systems over the 
last few decades were hauled into specially engineered 
environments so they could be realistically tested for EMP, in 
spite of intensive endeavor beforehand to make sure that those 
systems would be robust, they never passed. They always failed.
    They had to be fixed and sometimes fixed again and 
sometimes even fixed a third time before they would pass that 
type of rigorous full-op system scale examination, you know, 
with Mother Nature conducting the exam and DNA coming in 
afterwards and issuing the score sheet.
    So it is important to not only view as modern technology--
and some of these components here did not exist 20 years, these 
very high-tech lightning arresters, these little green 
objects--it is important to exercise prudence by designing them 
and putting them into your equipment, but it is also crucial to 
test to make sure that you did the right things and that you 
did the right things right as you have done it.
    Small errors in attempting to secure EMP hardness can have 
ruinously large consequences. Good intentions do not quite do 
the job with respect to EMP robustness.
    Chairman Bartlett. I would like to spend just a moment on 
looking at this hardening.
    It is my understanding that the rise time of an EMP pulse 
is measured in nanoseconds, which is very, very much faster 
than lightning, for instance, that usual lightening arrestor 
probably won't work, the surge protectors for lightning will 
not work as a surge protector for EMP. That is correct?
    Dr. Wood. The fast component of EMP is, indeed, just as you 
have described it. It rises much, much faster, many orders of 
magnitude faster, than does the electric field associated with 
a standard lightning bolt. Yes, sir.
    And so standard lightning protective means have little, if 
any, efficacy as far as EMP defenses are concerned. They are 
just too slow and, indeed, in many of our military systems that 
are designed to exploit EMP effects, a lot of attention is 
given to making the rise time be exceedingly brief because you 
can step around many types of EMP defenses by having as high a 
frequency a pulse, as fast a rise time as you possibly can 
generate.
    Chairman Bartlett. But are there surge protectors that will 
respond quickly enough to protect from EMP?
    Dr. Wood. Very definitely.
    Dr. Soper. Yes.
    Chairman Bartlett. But they are generally not used, is what 
you are saying?
    Dr. Wood. They were very difficult to lay hands on a 
quarter century ago. They were expensive, they were finicky, 
they were not terribly robust, and so forth.
    General advance of the technological base and, 
specifically, requirements for protecting very delicate 
electronic equipment have made those components available, not 
only readily available these days, but exceedingly cheaply 
available.
    As I said, components such as these, very fast surge 
clippers, you simply could not buy a quarter century ago, 
almost for love nor money, DOD could buy them, but that was 
about all. Nowadays, everybody walks down and buys them for a 
buck nineteen at retail in single quantities. And they are 
remarkably effective as far as clipping the pulses associated 
with EMP on power and signal lines both.
    Chairman Bartlett. One of the reasons that we are paying 
little attention to this as a nation is that, in the view of 
many people, the probability is very low and, therefore, it is 
not worth the effort.
    I remember that Tom Marsh, in our hearing just less than 
two years ago now indicated that--and he was chair of the 
Presidential Commission on Critical Infrastructure--he 
indicated that they had looked at EMP but decided it was not a 
high probability and, therefore, they did not look at it any 
further.
    I suggested at that hearing that, if he had not done so 
already, that I was sure when he went home that evening, he was 
going to cancel the fire insurance on his home because it was 
not much probability that his home was going to burn and 
therefore why would he commit these resources to buy an 
insurance policy on the home?
    I want to come back to the coverage and the Scud launchers 
and so forth, because I have the feeling that if we had an 
enemy that had only four nuclear weapons, that he could 
probably do us greater harm by exploding them at altitude than 
he could by dropping them on any four places in the country. 
Would that not be correct?
    Dr. Wood. Of course. That is self-evident.
    Chairman Bartlett. Now, if that is self-evident and since 
more and more of our potential enemies are----
    Dr. Wood. You do not have to take my word for it. You could 
ask Mr. Lukin, Chairman Lukin.
    Chairman Bartlett. Yes, I am sure he understands that. But 
if more and more of our enemies----
    Dr. Wood. Everybody understands that who has looked 
seriously at the matter, and those that dismiss it and say that 
it is a negligible threat and so forth are simply whistling 
past the graveyard, Mr. Chairman.
    Chairman Bartlett. My concern is that this is not a really 
unlikely occurrence. If we have enemies that are bent on doing 
us harm, all of them now have Scud launchers. Several of them 
have nuclear weapons. Those who do not have them will be able 
to acquire them within the foreseeable future. And if, in fact, 
we are as vulnerable as many people think we are to an EMP lay-
down, why would that not be the attack of choice? This is, I 
would think, the ultimate, asymmetric terrorist weapon, is it 
not?
    Dr. Wood. There are, as I said--you know, from the cold war 
days--the blue preferred red attacks and an EMP attack is the 
blue unpreferred red attack. It is the thing which the defender 
least wants to face and so the defender is very strongly 
inclined to say let us just pretend it will never happen.
    The fact of the matter is that in every war game, every 
strategic war game that I ever either was present at or read 
about, the Soviet attack on the United States always commenced 
with an EMP lay-down. It did not do it because it was 
traditional. It did it because it was so insanely effective.
    You know, what do you do with your first few bombs at the 
very beginning of a major attack? You do the EMP lay-down--
frankly, you use them in any way that most strongly damages 
your opponent, the guy that you are attacking. And the way that 
they always went was EMP lay-down. They did not use them to 
attack SAC headquarters in Omaha. They certainly did not waste 
them on Washington, DC. They always went for the EMP lay-down, 
and it was because it was a much more effective way to expend 
the first half-dozen or dozen major explosions than any other 
way there was. And that persists to the present time.
    The laws of nature have not changed. The United States 
vulnerability to EMP has not changed. Nothing has changed. But 
this is such an unpreferred red attack--and I am speaking of 
generic red, here, against generic blue--it is so strongly 
unpreferred that the way that is becoming fashionable to cope 
with it simply to deny it, to say, ``Surely this cannot be. 
Mommy, make this not to happen.''
    Chairman Bartlett. Let us go back in history to our first 
high-altitude burst where we learned about EMP. One of them was 
at the Johnston Island, the Starfish, was it, in 1962?
    Dr. Soper. Yes.
    Chairman Bartlett. Was there one at Kwajalein Atoll, too?
    Dr. Soper. I do not think so.
    Chairman Bartlett. How many of these high-altitude bursts 
have we real experience with?
    Dr. Soper. We had four in 1962 and two in 1958. Teak and 
Orange in 1958 and four in 1962, Starfish being the highest, 
and it was a 1.4 megaton burst at 400 kilometers. Checkmate, 
Kingfish--and what was the other one--Checkmate, Kingfish, 
Starfish and--at any rate, there were four at different 
altitudes.
    Chairman Bartlett. And it was roughly 800 to 1000 miles 
from Hawaii?
    Dr. Soper. Eight hundred.
    Chairman Bartlett. Eight hundred miles from Hawaii?
    Dr. Soper. Starfish was off Johnston Atoll. Yes.
    Chairman Bartlett. And what were the effects on Hawaii of 
that burst?
    Dr. Wood. As I said in my opening statement, sir, they shut 
down radio stations, street lighting systems, they stopped 
cars, burned out telephone systems. Those are the effects which 
are documented in public and referred to in ``The Effects of 
Nuclear Weapons'' by Glastone.
    Chairman Bartlett. We did not have very much in 
microelectronics, then, and I know of no computers in cars. 
Were that to be repeated today, what would the effects be?
    Dr. Wood. It clearly would be much more severe, because the 
electronics that would be subjected to that electromagnetic 
pulse are much more vulnerable to them.
    Dr. Soper. And I am not sure this is useful, but remember, 
the same nuclear detonation at high altitude that creates EMP 
on the ground also affects satellites within line of sight of 
the burst as well as--we know from those high altitude tests--
disrupts the communication channels that link the ground 
station to the satellite.
    So one should not limit your consideration--if you are 
going to do a balanced study of this--from EMP as the only 
damaging effect from high-altitude nuclear detonations, but 
rather recognize that other bad things happen as well, if that 
gives you any comfort.
    Chairman Bartlett. Let us turn for a moment to the 
satellite picture. How much more intense is the radiation, the 
effects from this high-altitude nuclear explosion, than the 
worst solar storms that we see that disrupt our communications?
    Dr. Wood. On the ground or in space, sir?
    Chairman Bartlett. In space.
    Dr. Wood. In space, the flavor of damage that comes at you 
that is like EMP is really of a rather different sort. There is 
no atmosphere to generate the electromagnetic pulse, but there 
is the spacecraft itself, and what you will realize there is 
called system-generated EMP. It is the consequence of having 
matter around in the immediate vicinity of the electronics that 
you are concerned about and the effect, as I said, is different 
in kind as well as different in magnitude.
    It generally imposes a much more severe threat, as far as 
electronic survival is concerned, at a reference distance from 
a reference explosion, because, as I said, you are kind of in 
the radiating region itself. The spacecraft is intercepting the 
radiation from the device, it is converting it into radio 
frequency and microwave frequency electrical energy within the 
spacecraft and, unless you are extremely careful, major chunks 
of your electronic plant tend to die on the spot, die 
instantly.
    Chairman Bartlett. These, as I understand, are called 
prompt effects?
    Dr. Wood. These are the prompt effects, sir. There are also 
the delayed effects associated with the radioactive debris from 
the nuclear device remaining in the magnetosphere of the earth, 
and that radioactive debris ``pumps up,'' is the popular term, 
and it is a fairly accurate description--it greatly augments 
the flux particles in the Van Allen belts of the earth, and 
these enhanced populations of high-energy particles tend to 
destroy spacecraft on a continuing basis.
    Anything from minutes to weeks of damage are done before 
the electronics will actually fail. Instead of failing on time 
scales of 10 or 20 years, they fail on time scales of tens of 
minutes to, typically, a few tens of days.
    Dr. Soper. I call your attention to an article in ``Defense 
Electronics''. It is not all that old. It was written in 1995. 
``Satellite Survivability in Space: Don't Count on It.'' It is, 
I think, one of the early attempts at describing the phenomena 
that Dr. Wood just mentioned; not only are there prompt effects 
but delayed effects, as the satellites continually pass through 
these pumped up Van Allen belts, and lists in here the 
degradation of many of the well-known satellites. It, perhaps, 
is an interesting article to read and it is scientifically 
correct.
    Chairman Bartlett. Without objection, we will include that 
as a part of this record, because I think that it is relative 
to what we are talking about.
     [The information may be found in the appendix.]
    Dr. Wood. It is relevant, sir, both with respect to 
civilian and military satellites, and, of course, there is a 
wealth of both of those. The very large majority of satellites 
in earth orbit that are functioning these days are civilian, 
and they carry everything from your TV programs to a good chunk 
of the traffic on the Internet. They provide environmental 
monitoring and, of course, there are the scientific research 
satellites.
    All of these are potentially vulnerable to both the prompt 
and the delayed effects of nuclear explosions at high altitude 
and, as Dr. Soper has pointed out, the links on the ground, the 
so-called ground stations with which one gives commands to 
satellites, sends data up to satellites, and receives data from 
satellites--those ground stations are exceedingly sensitive, 
necessarily, because the satellites do not have the ability to 
transmit or receive power readily because of the small antennas 
they must necessarily deploy.
    Ground stations are exceedingly sensitive and they are 
among the ones which can be expected to die most readily from 
the effects of electromagnetic pulse on the ground.
    And so when we speak of civilian infrastructure, we should 
be reminded that key portions of civilian infrastructure exist 
in space these days, and those portions, both because of their 
fragile ground links and because the satellites themselves are 
fragile, can be expected to be highly vulnerable to even a 
single high-altitude nuclear explosion.
    Chairman Bartlett. How many satellites do we have that are 
hardened to EMP?
    Dr. Wood. We have the military satellites, sir.
    Chairman Bartlett. How many of those are there? Two? Is 
that correct? The two MILSTAR satellites?
    Col. Skinner. Certainly, the two MILSTAR satellites have 
been hardened specifically against this kind of threat, but 
that is not to say that the other defense satellites are not 
hardened as well. For example, our early warning satellite 
systems must be hardened against the eventuality that an 
adversary would try to preempt our ability to detect their 
attack on the United States.
    So every satellite system has its own set of requirements 
that respond to the perceived threat against that kind of 
system, but I certainly do agree with the rest of the witnesses 
on this panel that some commercial systems have completely 
ignored the potential threat.
    I will say that the most systems operating geosynchronous 
are because of the long lives expected of satellites operating 
at that location do take the long duration dose quite well and 
are built to quite high standard, but the promptness, which Dr. 
Wood has explained, will take out satellites, and particularly 
those operating in the new emerging low earth orbiting 
communications satellites unless they are hardened against that 
threat will succumb to radiation very, very quickly and shorten 
their lives very substantially.
    Dr. Wood. On the time scale of most of two decades ago, Mr. 
Chairman, satellites whose survivability in wartime was 
considered crucial were actually taken and tested by the 
Defense Nuclear Agency against nuclear EMP, and these tests 
were formidable. They were remarkable, as far as their 
engineering features were concerned.
    They were also remarkably expensive, and yet the tests were 
done because it was considered important in the 1960s and 1970s 
and in the early 1980s to understand and to have, at a 
certifiable level, confidence that some subset of satellites 
would actually survive.
    Regrettably enough, that practice has ceased in recent 
times and, now, with all respect to not only the colonel but 
the department which he represents, the Department of Defense 
simply is not in a position to certify objectively that any of 
its satellites are EMP robust. They simply cannot do that 
anymore.
    Chairman Bartlett. Including the two MILSTAR?
    Dr. Wood. Yes, sir. Including the two MILSTAR. They simply 
can not certify that they are robust, objectively. The can tell 
you they believe they are. They can submit stacks of documents 
with people's signatures on them as high as the sky saying that 
all these people think they are, but they can no longer tell 
you that they are known to be robust.
    Chairman Bartlett. It is my understanding that some 85 to 
90 percent of all military communications traffic now moves 
over commercial sources. Is that correct?
    Col. Skinner. That is the kind of number that we see on a 
day-to-day basis. Yes, sir.
    Chairman Bartlett. Which means that after a high-altitude 
burst, within a relatively short period of time, the military 
would be denied 85 to 90 percent of its present communication 
capability?
    Col. Skinner. Well, keeping in mind, now, that the high-
altitude bursts that we are talking about are in the 300 
kilometer range and our geosynchronous satellites are 40,000 
kilometers above the earth, we have some advantage in a 
reduction of field strength at that longer distance from the 
burst. But certainly we do not expect our survivable 
communications command and control system to be supported on 
commercial satellites except via good luck, and because of that 
our essential emergency communications network is based on EMP-
protected communication systems.
    Dr. Wood. And MEECN, by and large, does not count on 
satellites surviving. The Minimum Essential Emergency 
Communications Network has features which do not involve 
satellites extensively for just the reasons that you have been 
exploring, Mr. Chairman. It is not just civilian satellites, 
but a number of military satellites whose survivability in an 
EMP-intensive environment could be considered to be very much 
in doubt.
    Chairman Bartlett. If we were to presume an EMP lay-down 
producing 10 to 20 kilovolts, how much of our national 
infrastructure would be disrupted and how much of it would be 
damaged by that kind of voltage?
    Dr. Wood. It has never been tested, sir, and so, 
objectively, no man can say. Estimates can be made, the basis, 
for instance, of what happens to long-distance electrical 
transmissions systems and long-distance telephone systems 
during severe solar storms, which generate very low frequency, 
low amplitude electromagnetic pulse light phenomena.
    In other words, of the three basic flavors of nuclear 
electromagnetic pulse, there is a very low frequency, low 
amplitude portion of it that is mimicked by severe solar storms 
and when we look at the consequences for telephony and power 
systems of those storms and we look and see what the pulses are 
that are measured and calculated to be generated by nuclear 
explosions, we say, ``Hmm. Those systems are not going to 
survive the low frequency portions of nuclear EMP, now are 
they?''
    Chairman Bartlett. Is it conceivable that our power grid 
and our communications network would be shut down by such an 
EMP attack?
    Dr. Wood. Ten to 20 kilovolts, in my considered not 
completely ignorant professional opinion, would shut down the 
power grid in this country if it saw a 10 to 20 kilovolt 
nuclear EMP and the low frequency correlates of that. Yes, sir.
    Chairman Bartlett. Yes, sir?
    Dr. Soper. I tend to be on Lowell's side on this, but you 
should understand there is a ongoing, and I would use the word 
``raging'' debate over just that issue. I think EPRI--and I am 
not sure I remember what that acronym stands for----
    Dr. Wood. The Electrical Power Research Institute.
    Dr. Soper. The Electrical Power Research Institute. And 
some of their people looked into this issue, as did the 
Department of Energy, and I do not have at my fingertips the 
results of that. But there are well-meaning people who have 
looked at this in some scientific detail that suggest that 
there would not be a catastrophic shutdown of the power grid. 
So there is a debate on that issue as well as the 
telecommunications infrastructure.
    Dr. Wood. I appreciate Dr. Soper's comment on that, because 
it needs to be clear that this is a matter of opinion. I gave 
you only my personal opinion. Other professional opinions may 
differ. The fact of the matter is that the tests have not been 
done.
    Dr. Soper. That is correct.
    Dr. Wood. It is certainly feasible to do the tests and 
those who say that it is feasible to do the test, very simply, 
fall short of a nuclear explosion. You inject current and 
voltage into power systems and see how they perform. The very 
fact that these tests have never been done, I suggest, says 
that the optimists know what the answer will be, and it will 
not support their position. If they are so confident that there 
will be no consequences, I challenge them to do the tests.
    Chairman Bartlett. And the test is doable?
    Dr. Wood. Oh, yes.
    Dr. Soper. Oh, yes.
    Dr. Wood. Very simply, in a straightforward manner, with 
entirely non-nuclear means. You just take high-power pulse 
generating equipment and inject pulses into electric power 
systems and say, ``Now, how do they perform?''
    And having looked in some detail over the past 35 years 
with respect to how civilian power systems do perform and why 
they undergo large-scale outages, I can assure you they do not 
degrade gracefully.
    They degrade anti-gracefully, if you will, Mr. Chairman, 
something like a high-tech house of cards. You pull out a key 
card and the whole structure crumbles on a time scale of tens 
of seconds to a few minutes. They are not built to be stressed. 
They are built to stand up to lightning stroke in worst case, 
an isolated lightning stroke. If you put down lightning strokes 
all over the system, they fail, and they fail in a quite 
readily predictable fashion, and the terrible thing about them, 
Mr. Chairman, is, once having failed, they do not get back up.
    The power system is built to run in stay state. It is not 
build to come up when it has a great deal of load connected to 
it and generation arrives in a hit-and-miss sort of fashion. 
And it is not feasible, as people have discovered--everything 
from the northeast blackout of 1965 on to the more recent 
smaller scale spectacular blackouts that have occurred at 
various places around the country--it is not feasible to put a 
power system back together automatically.
    It is put together by people using telephones and walkie 
talkies and so forth, and they basically paste the system back 
together on a time scale of tens of minutes to many hours.
    And if those systems, if the telephone systems and the 
walkie talkies and so on, do not work as well, and there are 
not neighboring power systems that are intact that can provide 
generation, that can serve as power sinks as necessary and so 
forth, the system just simply does not come back up. And it is 
not a matter of, ``Well, is it going to take a day or is it 
going to take a week?'' or whatever the answer is. It just does 
not come back up ever.
    Chairman Bartlett. But can we not go to the warehouse and 
get the spare parts that were zapped and put them back in?
    Dr. Wood. If your test equipment happens to be working, 
then you will slowly be able to repair the systems that burned 
out, but, of course, the test equipment died too.
    When a large power system's transformer gives out, when the 
insulation fails internal to a transformer on a large power 
system, what you do is you ship in a new transformer, typically 
on a time scale of three to twelve months and you ship it in by 
barge and huge trucks and so forth and you install it in place. 
It is a major operation. It is massive surgery at that 
particular switching station or main interconnection 
substation.
    When big power system components fail, they have failed 
permanently and you repair them on time scales, literally, sir, 
of months. That is to have a single component fail.
    When you have a hundred components failed all over an 
interconnection--it has never happened before and nobody has 
any idea how long it would take to rebuild it, but I 
confidently predict it would take well in excess of a year and 
that is if all the rest of the national technical 
infrastructure, economic infrastructure, and so forth were 
working.
    Chairman Bartlett. Will it be working?
    Dr. Wood. Of course not. It will all have failed. That is 
the nature of a large-scale EMP attack. Everything fails. Not 
every single component everywhere fails, but the pattern is 
that of a shotgun blast. You may get hit here, you may get 
there, or whatever, but most all of it will have got hit 
somewhere with at least one pellet and that is the same sense 
in which EMP failure will occur.
    Some things--by happenstance, by good luck, by robust 
construction, by being in a sheltered environment, in a tin 
warehouse or something like that--some components will survive. 
Most will fail.
    And because they fail at random points, they will be, first 
of all, difficult to determine that they truly have failed, 
and, secondly, there will not be nearly enough spare parts to 
replace them, even if all the power equipment and the derricks 
and the cranes and the barges and the trains and so forth--even 
if those were all working, which, of course, they will not be.
    Chairman Bartlett. The picture you are painting is a pretty 
grim one. If it took a year to get our power grid back 
operational, what happens in the meantime?
    Dr. Wood. My loose, informal characterization of it sir, is 
it is a continental-scale time machine. We essentially pick up 
the continent and move it back in time by about one century and 
you live like our grandfather and great-grandfathers and so on 
did in the 1890s until you rebuild. You do without telephones. 
You do without television, and you do without electric power, 
mostly, except in a few fortunate locations.
    You just live, as I said, in a Jeffersonian America, a 
pastoral America. And if it happens that there is not enough 
fuel to heat with in the winter time and there is not enough 
food to go around because agriculture has become so inefficient 
and so on, the population simply shrinks to meet the carrying 
capacity of the system.
    Chairman Bartlett. But, demographically, we are very 
different than our Jeffersonian beginnings, are we not?
    Dr. Wood. Within a factor of ten. There would be tens of 
millions of Americans left.
    Chairman Bartlett. I appreciate this characterization 
because what we want to accomplish by this hearing is two 
things, one to indicate that small business needs to be better 
utilized. There is lots of capability in small business to 
address this problem. It is not being addressed. And the other 
intent of our hearing is to raise the public consciousness.
    This is an eventuality which we cannot risk, in my view, 
which is why I have fire insurance on my home because, were 
that to burn, that would be a catastrophic event for me, so I 
insulate myself against that by buying an insurance policy.
    Dr. Wood. And yet, Mr. Chairman, the likelihood that your 
home will burn in any given year is, perhaps, one chance in 300 
to one chance in 500. That is why your fire insurance has the 
magnitude--your premium, the annual premium, has the magnitude 
that it does. Several centuries will go by, on the average, 
before your home will burn.
    And what you have to ask the people who come before this 
Committee and before the armed services committees, before the 
intelligence committees, and so forth, is, ``Can you give me a 
certification of likelihood of an EMP attack of one part in 300 
per year? Otherwise, where is the national fire insurance?''
    Chairman Bartlett. Which is a very good way of 
characterizing it.
    Dr. Soper, you had a comment?
    Dr. Soper. If I may, Mr. Chairman, might I ask you a 
question? Is that all right?
    Chairman Bartlett. Yes, sir.
    Dr. Soper. We have all stated our appreciation that you are 
holding this hearing and are willing to ask the kinds of 
questions that you are.
    Are you the single voice in Congress thinking and asking 
questions about this? I know that I have spoken before to 
Congressman Weldon and others, but it seems to me that, before 
this issue gets fully debated and all sides are heard and the 
issues are clearly defined and programs for small business, and 
large as well, put into place to help answer those questions, 
you have to get more of your fellow Congresspersons involved 
and energized and perhaps more hearings in different committees 
need to be held.
    It is a difficult problem, as Dr. Wood has pointed out. It 
is a potentially devastating problem, as all of us, I think, 
would agree, and it is more than, I think, one person in 
Congress, perhaps, can take on by him or herself.
    So my suggestion, or my request, would be to encourage your 
fellow Congressmen and Congresswomen to pick up the mantle and 
ask these same questions or work on this problem.
    Chairman Bartlett. Thank you. We are in a lot better shape 
than when we started. When we started, two-thirds of the 
members of our National Security Committee, now the Armed 
Forces Committee, did not even know what EMP was. Now, I think, 
they all know what it is. We certainly have the attention of 
Curt Weldon and his Subcommittee on R&D.
    They held the first ever full hearing. This is the second 
in the life of the Congress. The third will be held this summer 
and it will be focused almost exclusively on the effects of EMP 
on the national infrastructure, because we are very concerned 
that we need a study, that we need a concerted effort to look 
at what those effects would be and what we can now do to 
ameliorate those effects and what we can do after the event to 
recover from it. I think we need to look at it in both of those 
veins.
    So it is getting more attention in the Congress and each of 
us in the Congress tends to focus on issues where we think we 
can make a difference. This is one of the areas that has kind 
of been ceded to me.
    I have the recognition now of a number of the members of 
our National Security, our Armed Forces committee, and we are 
focusing on this and hoping to raise the public consciousness 
so that something will happen.
    After all, it will not happen until the public 
consciousness is raised. We have a representative government 
and the people we represent need to demand that their 
government focus on issues of importance to them and I think 
this is one of those.
     Dr. Soper. This is true, that chemical and biological 
agents and their weaponry is also part of weapons of mass 
destruction portfolio and chemical and biological issues did 
not receive that much attention until, I am told--I do not know 
this for sure, I am told that President Clinton read Mr. 
Preston's Book ``The Cobra Event'' or ``The Cobra Affair'' 
where this was discussed and literally within a few days, 
briefings were put together by the Department of Defense and 
briefed into the Oval Office.
    I am not suggesting that you go bang on his door to talk 
about the EMP issue, but it goes without question that that 
high-level attention, in general, begets high-level attention. 
I am not sure how useful that comment was, but----
    Chairman Bartlett. I appreciate that. Thank you very much.
    Dr. Wood, you had a comment?
    Dr. Wood. I would suggest, in the context of the general 
matter of informing the Congress and the public and the 
hearings that have been held and that you contemplate holding 
that you have already made a remarkable degree of progress, Mr. 
Chairman. That is, there does not seem to be very much debate 
with respect to not only what EMP is--I mean, that, after all, 
is a technical matter--but what its consequences would be.
    There just does not seem to be a lot of argument about 
that, at least that I have heard. The argument is simply over 
how likely is it. And I would suggest that you and your like-
minded colleagues are well over halfway to the finish line 
because you have got the technical basis, the factual basis, 
fairly well nailed down and stipulated to.
    You know, at the present time, everybody says, ``Yes, if it 
happened, it could be remarkably severe. The consequences could 
be grave, that we might be knocked out as a modern nation.''
    You know, this, I think, is a remarkable amount of 
progress, considering that the matter really has not been 
publicly debated for more than two or three years.
    The people--and I would suggest that the issue before the 
Congress at the present time is a very clear cut one relative 
to other issues of comparable gravity and complexity--namely, 
you simply have to ask the folks who say it can happen for the 
bases of their belief. Where are the analyses?
    Gen. Marsh, for instance, where are the analyses that 
support your belief that this, in spite of its devastating 
potential, that it is so unlikely that nothing need be done?
    I recall to you the, perhaps applicable, perhaps not 
applicable, circumstances around the Challenger disaster 13 
years ago that, when the Rogers Commission commenced inquiring 
of NASA as to why they had done the things that they had done 
and not done other things and so forth, they said that the 
shuttle had one chance in 100,000 of crashing and losing the 
shuttle and the crew on any given mission. One chance in 
100,000, so they never worried about it.
    Now, the fact of the matter is they had one chance in 24, 
which is quite a bit different than a chance in 100,000. At 
least that was the objective record.
    And so when the Rogers Commission went back and said, 
``Well, where did that one chance in a hundred thousand per 
flight come from?'' They discovered it was represented many 
places in the record, but they could find no analysis 
whatsoever that supported the number. None.
    It was literally a free-floating established article of 
faith in the NASA church that it was a chance in 100,000, but 
no basis for it whatsoever. Not one guy had ever sat down and 
written a three-page or a ten-page or a thirty-page analysis 
saying that we have only ten parts per million of likelihood of 
failure per mission. There is nothing there.
    Nowadays, the established likelihood, the documented 
likelihood and so forth, is one launch in 40 will crash. And 
that is what happens when not only NASA but their independent 
contractors and so forth went back and did the study of the 
same system that was believed to have a chance in 100,000. It 
now has lots and lots of analysis. Instead, it is one chance in 
40. And that difference of a factor of 2500 is remarkably 
large.
    And so I say to the folks that are on the record as saying, 
``Ignore this. It can not possibly happen. It would be terrible 
if it did, but it will not happen,'' is where is your analyses? 
Where are the numbers that say what the likelihood is of the 
U.S. getting hit with an EMP lay-down, not just from Mr. Lukin 
and his friends in the former Soviet Union, but from the North 
Koreans, the Iraqis, the Iranians, the South Asians, the 
whatever? Where is the analysis that says that?
    And, by the way, we sure hope that there will not be a 
Rumsfeld Commission that comes along six weeks after the CIA, 
the Director of Central Intelligence last May testified that 
there was 10 to 15 years of margin before the North Koreans 
would have an ICBM; six weeks later comes the Rumsfeld 
Commission that says, ``It might happen in a matter of five 
years or less,'' and six weeks after that, sir, they did it. 
They launched a prototype ICBM. You know, three months after 
the DCI said, ``Do not worry, you got 10 to 15 years.''
    And so you ask, ``Well, where was the analysis that 
supported that 10 to 15 year estimate?'' and, by and large, it 
did not exist.
    So there is a lot of free-floating, very widely subscribed 
to, highly established superstition, sir, with respect to 
national security issues, and it does not much matter whether 
it is North Korean ICBMs or EMP or biological warfare attacks 
coming out of the Middle East. These are free-floating, sir. 
They have no basis in analysis, let alone a basis in fact.
    Chairman Bartlett. I do not know how one arrives at the 
probability, but I would just like to, for a moment, reiterate 
some of the things that we have gone over in our question-and-
answer period here.
     The first is that a number of nations now have the 
capability, with modifying commercial ships and a Scud 
launcher, to place a missile over our continent.
    Secondly, you would not know----
    Dr. Wood. If I might interject, sir?
    Chairman Bartlett. Sir?
    Dr. Wood. To do so in a fashion that might be exceedingly 
difficult to trace or to attribute. That is to say, it is a 
Lukin-type attack, if I can adapt your quotation. It not only 
happens, but it happens in a fashion and in a manner that is 
basically impossible to respond to. There is no basis for 
retaliation because the United States government could not 
establish, to American standards of proof, as to where the 
attack came from.
    Chairman Bartlett. Now, would that not immeasurably 
increase the probability that it would occur? If they had the 
capability, if the effect on us would be devastating and if we 
did not even know who did it so that we would not know to whom 
to respond, would not that increase the probability that it 
might happen.
    Dr. Wood. When I was a kid growing up, this was called 
``leaning with your glass chin.'' You know, you provide an 
exceedingly attractive opportunity for your opponent and then 
you do nothing to defend against it.
    Yes, sir. That is seemingly exactly what it is, and I think 
the reason that I would disagree so strongly with Gen. Marsh's 
testimony of July of 1997 is simply that, in a world in which 
people did not respond to incentives, his assessment might have 
considerable validity. But when you have people that dislike 
the United States and dislike everything that it does and 
stands for and this, that, or whatever, dislike it rather 
intensely, they have the method, motive and opportunity to do 
something about that dislike because we have left ourselves 
wide open to EMP attack and they have the potential of 
attacking without it being known as to where the attack came 
from, you have created an enormous incentive. You know, in 
terms of human motivation and human behavior, you have created 
an enormous incentive for just that type of attack.
    Chairman Bartlett. Talking about people disliking us, a 
recent member of the Duma came to our country the week before 
last and he said that our president had been able to accomplish 
in 45 days, at that time, what the Soviet Communists had failed 
to accomplish in 70 years; that was to get the Russian people 
to hate Americans.
    For the first time since the cold war began, Russians were 
in the streets demonstrating against America. The Soviet 
Communists had failed to do that in 70 years. He said our 
president accomplished that in 45 days of bombing of Kosovo.
    Dr. Wood. Not to worry, Mr. Chairman. You know, do not get 
too excited. It is still six months before Duma elections and 
it is a full year until they select another president. Not to 
worry too much.
    Chairman Bartlett. I want to ask members of the panel if 
they have any observations they have not had an opportunity to 
make before we adjourn our meeting.
    Dr. Soper. The only comment that I would like to make is 
that I am disappointed that one chair is empty, because I think 
one of the important--albeit difficult to discuss in open 
session--important issue is, at least as a government 
impression of the threat, of the probabilities that Dr. Wood is 
talking about, it would have been nice to at least have had 
that on the record to understand.
    Chairman Bartlett. From classified and non-classified 
discussions with Bob Walpole, I can tell you that his 
position--I believe the position of the CIA is very much closer 
to the position of Dr. Soper and Dr. Wood than it is to the 
position of DOD.
    Is that a fair assessment, Dr. Wood?
    Dr. Wood. That is my impression from a number of classified 
discussions and briefings that I have done in the company of 
Mr. Walpole.
    I, of course, do not want to put words in his mouth, and I 
would like to clarify, Mr. Chairman, in this context that I 
summarized the statements of DCI 13 months ago on the subject 
of the North Korean and Iranian missile threats as saying that 
the analysis turned out to be remarkably thin and thoroughly 
mistaken.
    I would like to clarify that as saying that I think that 
Mr. Walpole and his colleagues supported the DCI within the 
parameters that they were given to work within. It is just that 
they never thought, and Mr. Walpole has said this publicly, 
that the North Koreans would jump so rapidly to a three-stage 
rocket.
    You know, three stages is kind of the number that you need 
if you are a fledgling, missile only power if you want ICBM 
capability, and it was believed that that would be a long time 
coming. Well, it turned out to be an incredibly short time 
coming.
    So within the parameters that they worked and the way that 
the job that they were given to do, they, I think, performed 
credibly. The problem was simply that they were wrong by 10 to 
15 years. I know that Mr. Walpole has clarified very 
substantially subsequently, the parameters within which they 
worked and, as I said, I think they did a very professional job 
within those parameters, but the institutional parameters were 
simply wildly wrong.
    Chairman Bartlett. The religious world is very familiar 
with the miracle of conversion. The CIA has recently had that 
experience relative to these kinds of threats, I think.
    Mr. Wiltsie, the Applied Physics Laboratory has been for 
our military an honest broker for a number of years now. There 
are obviously different opinions relative to the probability of 
an EMP lay-down, different opinions relative to the effect of 
an EMP lay-down, different opinions relative to what we ought 
to be doing in anticipation of that kind of an eventuality.
    Is this the kind of thing that the Applied Physics 
Laboratory could be an honest broker for or would there be 
others who would be more appropriately fitted for this role?
    Mr. Wiltsie. Well, I think the Applied Physics Laboratory 
certainly could be an honest broker for this. I mean, I am not 
qualified to say if there are others that are more qualified 
than APL to do such a task, but we have looked at it at your 
behest since early 1997 and I think we have a feeling for the 
technology involved and probably could serve a useful purpose 
in that role.
    Chairman Bartlett. I thank you very much. We certainly need 
someone to look at the national picture, not the military, the 
civilian part of it. What would be the likely consequences, 
immediate consequences? What would be the long-term 
consequences? What could we do to ameliorate those effects and 
what would we do after the event occurred?
    And I do not think that either of these have been given 
very much attention and I think that, considering the 
devastating effects that this might very well have on our 
country, that this would be a very inviting opportunity for 
enemies, and I think that it is somewhat irresponsible of us 
not to be looking at what we could do to ameliorate the effects 
and what we might do after the event occurred.
    And the analogy of the insurance policy--that is all that I 
would ask, is that a prudent nation should invest in an 
adequate insurance premium the way you do for your home and the 
liability on your automobile and that sort of thing. We have 
not done that, I think, in any way relative to this. It has 
been ignored.
    Perhaps it is too hard, Dr. Wood, and if it is too hard to 
deal with, you just ignore it. Do you think that has been 
something of a factor in our response?
    Dr. Wood. Yes. That and the intellectual tenor of the times 
is in the direction of kind of a comprehensive denuclearization 
of American military thought and, thus, of the civilian 
consequences of it.
    I would just invite your consideration, Mr. Chairman, and 
that of your colleagues in Congress, to the qualitative 
difference between the situation that obtained after a rather 
junior--I think he was a deputy foreign minister or assistant 
foreign minister of China made the remark a few years ago that 
we would not interfere with the Chinese dealing with the Taiwan 
issue because we cared more about Los Angeles than we cared 
about Taipei. Well, that caused the Washington establishment, 
at least from my perspective, to run off screaming into the 
night.
    You come back with a statement that you and a number of 
your colleagues, including Mr. Weldon, heard from the chairman 
of the defense committee of the state Duma of Russia and a 
gentleman who is very highly placed in the Russian national 
security establishment, by saying, ``If we really wanted to 
hurt you, here is what we would do,'' and describe a very 
credible threat and you can hear a pin drop in response.
    There is not only nobody running off screaming in the 
night, they are not even murmuring in the daytime about it. You 
know, it is a remarkable difference.
    You know, the Chinese can barely extend a credible threat. 
They could blow up a dozen and a half American cities and that 
is the end of it. The Russians can incinerate the North 
American continent, and yet they say, ``You know, if we really 
wanted to hurt you, this is what we would do.''
    I am very struck by the difference in reaction to it.
    Chairman Bartlett. And he said that without fear of 
reprisal.
    Dr. Wood. Sure.
    Chairman Bartlett. Because it would be done from the sea 
and because we would not know who did it.
    Dr. Wood. The Russians and, very frankly, most everybody 
else, but the Russians in their sleep know how to attack from 
the sea so that we would never see the attack coming. Never 
ever. Very reliably. Certifiably, if you will, how to attack so 
that it was unattributable.
    Chairman Bartlett. Well, I want to thank all of you very 
much for coming. You have helped immeasurably in our goal of 
raising the public consciousness of this.
    We will hold the record open for questions from our 
colleagues, if they wish to ask them, and we will hold the 
record open for additional inputs that all of you would like to 
make.
    I want to thank the Applied Physics Laboratory for hosting 
us and I want to really thank all of you for coming and 
testifying today.
    Our hearing will be in adjournment.
    [Whereupon, at 2:05 p.m., the Subcommittee was adjourned.]




    [GRAPHIC] [TIFF OMITTED]60728.001
    
    [GRAPHIC] [TIFF OMITTED]60728.002
    
    [GRAPHIC] [TIFF OMITTED]60728.003
    
    [GRAPHIC] [TIFF OMITTED]60728.004
    
    [GRAPHIC] [TIFF OMITTED]60728.005
    
    [GRAPHIC] [TIFF OMITTED]60728.006
    
    [GRAPHIC] [TIFF OMITTED]60728.007
    
    [GRAPHIC] [TIFF OMITTED]60728.008
    
    [GRAPHIC] [TIFF OMITTED]60728.009
    
    [GRAPHIC] [TIFF OMITTED]60728.010
    
    [GRAPHIC] [TIFF OMITTED]60728.011
    
    [GRAPHIC] [TIFF OMITTED]60728.012
    
    [GRAPHIC] [TIFF OMITTED]60728.013
    
    [GRAPHIC] [TIFF OMITTED]60728.014
    
    [GRAPHIC] [TIFF OMITTED]60728.015
    
    [GRAPHIC] [TIFF OMITTED]60728.016
    
    [GRAPHIC] [TIFF OMITTED]60728.017
    
    [GRAPHIC] [TIFF OMITTED]60728.018
    
    [GRAPHIC] [TIFF OMITTED]60728.019
    
    [GRAPHIC] [TIFF OMITTED]60728.020
    
    [GRAPHIC] [TIFF OMITTED]60728.021
    
    [GRAPHIC] [TIFF OMITTED]60728.022
    
    [GRAPHIC] [TIFF OMITTED]60728.023
    
    [GRAPHIC] [TIFF OMITTED]60728.024
    
    [GRAPHIC] [TIFF OMITTED]60728.025
    
    [GRAPHIC] [TIFF OMITTED]60728.026
    
    [GRAPHIC] [TIFF OMITTED]60728.027
    
    [GRAPHIC] [TIFF OMITTED]60728.028
    
    [GRAPHIC] [TIFF OMITTED]60728.029
    
    [GRAPHIC] [TIFF OMITTED]60728.030
    
    [GRAPHIC] [TIFF OMITTED]60728.031
    
    [GRAPHIC] [TIFF OMITTED]60728.032
    
    [GRAPHIC] [TIFF OMITTED]60728.033
    
    [GRAPHIC] [TIFF OMITTED]60728.034
    
    [GRAPHIC] [TIFF OMITTED]60728.035
    
    [GRAPHIC] [TIFF OMITTED]60728.036
    
    [GRAPHIC] [TIFF OMITTED]60728.037
    
    [GRAPHIC] [TIFF OMITTED]60728.038
    
    [GRAPHIC] [TIFF OMITTED]60728.039
    
    [GRAPHIC] [TIFF OMITTED]60728.040
    
    [GRAPHIC] [TIFF OMITTED]60728.041
    
    [GRAPHIC] [TIFF OMITTED]60728.042
    
    [GRAPHIC] [TIFF OMITTED]60728.043
    
    [GRAPHIC] [TIFF OMITTED]60728.044
    
    [GRAPHIC] [TIFF OMITTED]60728.045
    
    [GRAPHIC] [TIFF OMITTED]60728.046
    
    [GRAPHIC] [TIFF OMITTED]60728.047
    
    [GRAPHIC] [TIFF OMITTED]60728.048
    
    [GRAPHIC] [TIFF OMITTED]60728.049
    
    [GRAPHIC] [TIFF OMITTED]60728.050
    
    [GRAPHIC] [TIFF OMITTED]60728.051
    
    [GRAPHIC] [TIFF OMITTED]60728.052
    
    [GRAPHIC] [TIFF OMITTED]60728.053
    
    [GRAPHIC] [TIFF OMITTED]60728.054
    
    [GRAPHIC] [TIFF OMITTED]60728.055
    
    [GRAPHIC] [TIFF OMITTED]60728.056
    
    [GRAPHIC] [TIFF OMITTED]60728.057
    
    [GRAPHIC] [TIFF OMITTED]60728.058
    
    [GRAPHIC] [TIFF OMITTED]60728.059
    
    [GRAPHIC] [TIFF OMITTED]60728.060
    
    [GRAPHIC] [TIFF OMITTED]60728.061
    
    [GRAPHIC] [TIFF OMITTED]60728.062
    
    [GRAPHIC] [TIFF OMITTED]60728.063
    
    [GRAPHIC] [TIFF OMITTED]60728.064
    
    [GRAPHIC] [TIFF OMITTED]60728.065
    
    [GRAPHIC] [TIFF OMITTED]60728.066
    
    [GRAPHIC] [TIFF OMITTED]60728.067
    
    [GRAPHIC] [TIFF OMITTED]60728.068
    
    [GRAPHIC] [TIFF OMITTED]60728.069
    
    [GRAPHIC] [TIFF OMITTED]60728.070
    
    [GRAPHIC] [TIFF OMITTED]60728.071
    
    [GRAPHIC] [TIFF OMITTED]60728.072
    
    [GRAPHIC] [TIFF OMITTED]60728.073
    
    [GRAPHIC] [TIFF OMITTED]60728.074
    
    [GRAPHIC] [TIFF OMITTED]60728.075
    
    [GRAPHIC] [TIFF OMITTED]60728.076
    
    [GRAPHIC] [TIFF OMITTED]60728.077
    
    [GRAPHIC] [TIFF OMITTED]60728.078
    
    [GRAPHIC] [TIFF OMITTED]60728.079
    
    [GRAPHIC] [TIFF OMITTED]60728.080
    
    [GRAPHIC] [TIFF OMITTED]60728.081
    
    [GRAPHIC] [TIFF OMITTED]60728.082
    
    [GRAPHIC] [TIFF OMITTED]60728.083
    
    [GRAPHIC] [TIFF OMITTED]60728.084
    
    [GRAPHIC] [TIFF OMITTED]60728.085
    
    [GRAPHIC] [TIFF OMITTED]60728.086
    
    [GRAPHIC] [TIFF OMITTED]60728.087
    
    [GRAPHIC] [TIFF OMITTED]60728.088
    
    [GRAPHIC] [TIFF OMITTED]60728.089
    
    [GRAPHIC] [TIFF OMITTED]60728.090
    

</pre></body></html>
